<html>
<title> - THE FUTURE OF DEMOCRACY AND GOVERNANCE IN LIBERIA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


           THE FUTURE OF DEMOCRACY AND GOVERNANCE IN LIBERIA

=======================================================================

                                 HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 13, 2017

                               __________

                           Serial No. 115-63

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                  U.S. GOVERNMENT PUBLISHING OFFICE                    
26-837PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2c4b5c436c4f595f584449405c024f434102">[email&#160;protected]</a>                             
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
DANIEL M. DONOVAN, Jr., New York     AMI BERA, California
F. JAMES SENSENBRENNER, Jr.,         JOAQUIN CASTRO, Texas
    Wisconsin                        THOMAS R. SUOZZI, New York
THOMAS A. GARRETT, Jr., Virginia
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Donald Yamamoto, Acting Assistant Secretary, Bureau 
  of African Affairs, U.S. Department of State...................     5
Ms. Cheryl Anderson, Acting Assistant Administrator, Bureau for 
  Africa, U.S. Agency for International Development..............    14
Mr. Dave Peterson, senior director, Africa Programs?, National 
  Endowment for Democracy........................................    28
Ms. Aurelia Curtis, founder and executive director, Weeks 
  Educational and Social Advocacy Project........................    35
Mr. Rushdi Nackerdien, regional director for Africa, 
  International Foundation for Electoral Systems.................    45
Christopher Fomunyoh, Ph.D., senior associate and regional 
  director for Central and West Africa, National Democratic 
  Institute......................................................    59

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Donald Yamamoto: Prepared statement................     7
Ms. Cheryl Anderson: Prepared statement..........................    16
Mr. Dave Peterson: Prepared statement............................    32
Ms. Aurelia Curtis: Prepared statement...........................    39
Mr. Rushdi Nackerdien: Prepared statement........................    48
Christopher Fomunyoh, Ph.D.: Prepared statement..................    61

                                APPENDIX

Hearing notice...................................................    74
Hearing minutes..................................................    75

 
           THE FUTURE OF DEMOCRACY AND GOVERNANCE IN LIBERIA

                              ----------                              


                     WEDNESDAY, SEPTEMBER 13, 2017

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
room 2172 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order, and good 
afternoon to everyone.
    On the eve of the Liberian election, I want especially 
thank Congressman Dan Donovan for recommending this important 
hearing for our subcommittee before those elections and also to 
speak to the future of democracy and governance in Liberia.
    As we all know, of the more than 50 nations in Africa, the 
United States has the closest connection with the Republic of 
Liberia.
    This is not only because Liberia was founded in 1847 by 
freed men and former slaves from this country, but also because 
of the estimated 500,000 Liberians and Liberian descendants who 
live here.
    Liberian cities such as Monrovia and Buchanan were named 
for American Presidents and--in part of my district that I had 
for 30 years before it was redistricted out--the city of 
Trenton has a very large Liberian diaspora population with whom 
I got very close, and still do a great deal of case work for 
even though I don't represent them because that bond is so 
strong.
    However, most Americans are largely unaware of the long 
link between United States and Liberia and likely see Liberia 
as just another African country.
    Most Americans are unaware that Liberia has been a major 
U.S. ally since World War II and into the Cold War, hosting 
U.S. communications facilities in the 1960s and 1970s, and has 
received extensive U.S. development assistance including post-
war aid and Ebola aid to Liberia.
    The United States has also helped Liberia build its 
criminal justice sector and supported transitional justice 
efforts.
    U.S. has funded just over a quarter of the cost of United 
Nations Mission in Liberia (UNMIL) at a cost of about $106 
million annually as of fiscal year 2016.
    Liberia is also implementing a $256.7 million 5-year MCC 
compact signed in 2015 designed to increase access to reliable 
affordable electricity and enhance the country's poor road 
infrastructure.
    Bilateral State Department and United States AGency for 
International Development (USAID) assistance totaled $91 
million in Fiscal Year 2016. President Ellen Johnson Sirleaf 
has made some advancement in democracy and governing during her 
two terms, and we applaud her for that, following the despotic 
rule of Charles Taylor.
    During his term of office, Taylor was accused of war crimes 
and crimes against humanity as a result of his involvement in 
the Sierra Leone civil war from 1991 to 2002. He was also 
responsible for serious human rights violations in Liberia as 
well.
    Charles Taylor was formally indicted by the Special Court 
for Sierra Leone in 2003, and I would note parenthetically that 
the chief prosecutor has been before this subcommittee, David 
Crane, many times and has provided useful insights as to what 
we need to do with regards to Syria and war crimes tribunals in 
another part of the world, all of that information, all of that 
wisdom gleaned from his work on the Special Court, which not 
only indicted but prosecuted successfully many, and eventually 
Charles Taylor, who as we all know, got 50 years and is 
currently serving that sentence at The Hague.
    The United States occasionally arrested the alleged 
perpetrators of civil rights human rights abuses, often using 
the immigration perjury charges as a vehicle for prosecution. 
One of them was Charles McArther Emmanuel, also known as 
Chuckie Taylor, the son of Charles Taylor.
    Raised in Florida, Emmanuel became the commander of the 
infamously violent Anti-Terrorist Unit, commonly known in 
Liberia as the Demon Forces.
    He is currently serving a 97-year sentence back in Florida 
for his role in human rights violations carried out by that so-
called Anti-Terrorist Unit.
    President Sirleaf was unable to, under the constitution, 
run for a third term. But unlike many other leaders around the 
world, including in Africa, she did not push to change the 
constitution to allow a third term.
    We don't know yet whether her successors can and will 
continue her upward trend. Most candidates for President have 
highlighted corruption.
    But as our witnesses from the National Democratic Institute 
(NDI) can tell us, these candidates have platforms that are 
light on policy specifics.
    Consequently, today's hearing is intended to examine the 
prospects for democracy and governance in Liberia following the 
October elections which we hope will be free and fair and 
transparent.
    The United States is a key provider of technical assistance 
to Liberia's national election commission including the 
International Foundation for Electoral Systems program funded 
by USAID and the U.N. Development Programme backed by nearly 
$12 million in mostly European Union funding under a multi-
faceted project from 2015 to 2018.
    The election commission also receives broader institutional 
capacity building support under a second $4 million USAID-
funded program, the Liberian Administrative and Systems 
Strengthening.
    Our Government has a significant investment in Liberia on 
several fronts. The future direction of this important country 
is important to the United States.
    Therefore, we have a stake in the next government, building 
on the advances made in democracy and governance, again, under 
President Johnson Sirleaf.
    Most of all, there must be much more done to minimize the 
impact of corruption in Liberia. It is a serious issue and 
hopefully our Government, working in tandem with a new 
government, will really do a major effort along those lines.
    I would like to yield to our distinguished ranking member, 
Ms. Bass.
    Ms. Bass. Thank you very much, Mr. Chair, and especially 
for this timely hearing, considering that we are a few weeks 
away from an election in Liberia.
    So on October 10th we know that Liberians will select a new 
President, Vice President, and Members of their House. The 
upcoming elections mark an important moment for the country 
because they are expected to lead to the country's first 
electoral transfer of power.
    And before we delve into democracy, governance, and the 
future of Liberia, I actually wanted to take a moment to 
highlight Madam Ellen Johnson Sirleaf as she ends her second 
term in presidency.
    It was such an international event when she became the 
first female President on the continent of Africa. In 2005, she 
was charged with the seemingly insurmountable challenge of 
building a country impacted by 14 years of civil war where more 
than 200,000 people were killed.
    Most of the national infrastructure was destroyed and the 
country was burdened by enormous debt. I remember when 
President Johnson Sirleaf came to the United States and to the 
House many times when Power Africa was established because, if 
you remember, Liberia was not included in the Power Africa 
proposal, and she walked the halls of Congress until that was 
changed and Liberia was included.
    During her 12 years of the presidency, a decade of 
sanctions was lifted and deemed no longer necessary. The 
economy has drastically improved and averaged more than 7 
percent annual growth.
    Per capita income has risen from a low point of just $80 at 
the end of the second civil war in 2003 to $700 even though the 
population has increased by nearly 50 percent to just under 5 
million and life expectancy is up from 53 to 61 years.
    And I think that is particularly remarkable, given the 
setback that the Ebola crisis presented, and the Ebola crisis 
was certainly an example of what happens when the health 
infrastructure deteriorates how that was--that disease spread 
so quickly but yet the country rebounded in spite of it.
    We know that the country has also made great progress in 
rebuilding its infrastructure and its democratic institutions. 
And finally, President Sirleaf has been a strong proponent of 
equal rights for women and a champion for youth.
    We all applaud and acknowledge her hard work which has also 
been recognized by the international community, most notably 
when she was awarded the Nobel Peace Prize.
    I also want to point out--I was in Ghana in January for the 
inauguration of the President, and President Sirleaf there as 
the head of Economic Community of West African States (ECOWAS) 
and to see the leadership that she took as the head of ECOWAS 
in resolving the conflict in the Gambia, which certainly could 
have deteriorated in a terrible way.
    Returning to the topic of this hearing, which is the future 
of democracy and governance in Liberia, I want to highlight 
that another extremely important and final act that the 
President will take is to adhere to Liberia's constitution and 
step aside in order to allow the democratic process to continue 
as the people of Liberia choose their next President.
    I am happy to say also that President Johnson Sirleaf will 
be here next Friday as part of the annual legislative 
conference of the Congressional Black Caucus Foundation and we 
look forward to her remarks that she will make in a 
presentation a week from Friday in the morning.
    I was honored to be a part of NDI's delegation to Kenya to 
observe the election. I am sorry I won't be able to participate 
this time in October.
    I look forward to hearing from the representative from the 
National Endowment for Democracy (NED), who I am sure will talk 
about the upcoming observations.
    I am also glad to see that we have an acting Assistant 
Secretary--we have all been worried about that for a while--and 
an acting Assistant Administrator to USAID. So I look forward 
to your comments.
    Thank you.
    Mr. Smith. Thank you very much, Ms. Bass.
    I would like to yield to Congressman Dan Donovan.
    Mr. Donovan. Chairman, I am going to yield my time for when 
I chair the second panel. I will do my opening statement. Thank 
you, sir.
    Mr. Smith. Thank you.
    I would like to welcome our two distinguished witnesses 
and, certainly, Donald Yamamoto is no stranger to this 
subcommittee and to the work that he will be speaking to and I 
want to thank him for his leadership.
    He is the acting Assistant Secretary to Bureau of African 
Affairs at State. He also served as Principal Deputy Assistant 
Secretary of State in the Bureau of African Affairs from 2003 
to 2006 where he was responsible for coordinating U.S. policy 
toward more than 20 countries in East and Central Africa.
    He served as our Ambassador to Ethiopia from 2006 to 2009 
and also the U.S. Ambassador to the Republic of Djibouti from 
2000 to 2003 and was the Deputy Director for East African 
Affairs from 1998 to 2000 and he has, again, testified several 
times before this committee and, again, we thank him for his 
service.
    Then Cheryl Anderson who is the acting Assistant 
Administrator for the Bureau of Africa at the U.S. Agency for 
International Development.
    Ms. Anderson has more than 20 years of development 
experience, mostly in Africa. Before joining USAID as a Foreign 
Service Officer, she worked in USAID missions in the Democratic 
Republic of Congo, Uganda, Sudan, and East Africa.
    Prior to joining USAID, she worked as a program manager for 
Healthlink Worldwide and also served as a Peace Corps volunteer 
in Ghana.
    Mr. Secretary, if you could begin.

 STATEMENT OF THE HONORABLE DONALD YAMAMOTO, ACTING ASSISTANT 
 SECRETARY, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Yamamoto. Thank you very much.
    I would like to submit the longer statement for the record.
    Mr. Smith. Without objection, so ordered.
    Mr. Yamamoto. Representative Smith, thank you very much. 
Congresswoman Bass and Congressman Donovan, thank you very 
much. It is a great honor to be back here today.
    Good afternoon. Although the 2014-15 Ebola epidemic had a 
massive human impact and slowed economic growth worldwide, the 
response led by the United States helped Liberia overcome Ebola 
and return the country to the path of building confidence.
    It is hard to overstate the enormity of the challenge 
President Ellen Johnson Sirleaf inherited in 2005. We applaud 
the respect she had demonstrated for Liberia's constitution 
throughout her tenure and the positive example she has set for 
the continent of Africa by her unbending respect for 
Presidential term limits.
    Next month, Liberia's citizens will go the polls to 
facilitate Liberia's first peaceful transition of power between 
democratically-elected leaders since 1944.
    Despite how far Liberia has come, many challenges remain 
that will fall to President Sirleaf's successor to address. On 
the elections and security, the Presidential candidates vying 
to replace President Sirleaf have been campaigning vigorously 
since the start of the formal campaign period at the end of 
July.
    We are pleased that 20 registered political parties 
declared their commitment to a peaceful electoral process and 
many of them reaffirmed this commitment on the margins of the 
ECOWAS summit in June 2017.
    While the United States does not support any specific party 
or candidate, we are pleased to see a robust participation in 
this election.
    Liberians from all walks of life are aware of the 
importance of these elections and the United States stands by 
those committed to support a peaceful, credible, and 
transparent electoral process.
    Despite very real challenges, President Sirleaf and her 
administration are committed to conducting a peaceful, 
credible, and transparent election.
    The government has also taken steps to build systems and 
processes led by the Governance Commission for the handover of 
power that will occur in January 2018.
    There are significant challenges still facing the National 
Electoral Commission notably: Poor infrastructure, inadequate 
funding, heavy rain that could complicate election logistics.
    However, we are encouraged that the NEC successfully 
carried out a free and fair legislative bi-election this past 
February.
    We are providing comprehensive program support to the 
Liberian National Election Commission, civil society 
organizations, media outlets in the run-up to the 2017 
elections.
    In addition, our Ambassador is meeting with candidates 
running for President to emphasize the importance of peaceful 
elections and transitioning government that builds upon the 
progress made in the last 12 years.
    As UNMIL looks to close out its mandate at the end of March 
2018, it should be considered a success story. It has kept the 
peace and gradually but steadily transferred key 
responsibilities back to government.
    The U.N. Mission to Liberia presently is mandated, notably, 
to protect civilians, advise the Liberian National Police on 
election security, and promote sustainable peace through its 
radio station.
    Since July 2016, the Government of Liberia has been fully 
responsible for the internal security and we have seen no 
discernible change in this society's situation since then.
    A joint security task force chaired by the Liberian 
National Police is also actively overseeing the election 
security planning. This is a positive sign for prospects of 
maintaining peace and stability during the electoral period.
    On governance, the next President of Liberia will inherit a 
more stable and secure Liberia than that which President 
Sirleaf inherited in 2005.
    While some drivers of instability have diminished, others 
will need continued attention. These include deficiencies in 
the administration of justice, official corruption, land 
disputes, intertribal, interethnic, and interreligious 
tensions, poverty coupled with income disparity, and a large 
youth populations disproportionately affected by unemployment.
    Liberia has come a long way in rebuilding state 
institutions after years of conflict. Nevertheless, the gains 
are fragile and there is still room for much improvement.
    Official and systemic corruption drains limited public 
resources, deters investment and contributes to a culture in 
which working in government can be perceived more as a route to 
self-enrichment than public service.
    There is continued need to strengthen institutions critical 
to democratic governance to ensure improvements are sustained.
    As we look ahead, I can assure you the United States 
remains steadfast in its support for the people of Liberia in 
their efforts to consolidate further democratic gains, ensure 
their government remains accountable to its citizens, reduce 
corruption, ensure the responsible stewardship of scarce public 
resources.
    And with that, I welcome your questions.
    [The prepared statement of Mr. Yamamoto follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you very much, Mr. Ambassador.
    Ms. Anderson.

      STATEMENT OF MS. CHERYL ANDERSON, ACTING ASSISTANT 
ADMINISTRATOR, BUREAU FOR AFRICA, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Ms. Anderson. Good afternoon, Chairman Smith, Ranking 
Member Bass, Congressman Donovan.
    Thank you for inviting me to speak today. I appreciate your 
considered interest in how U.S. policies and assistance 
programs can help Liberians consolidate a peaceful and stable 
democracy in which prosperity is available to all.
    USAID's development partnership with Liberia dates back to 
our founding in 1961. As the largest bilateral donor in 
Liberia, today the United States plays an influential role in 
many aspects of the country's development.
    Our programs address the underlying structural and 
institutional problems that gave rise to 14 years of civil 
strife and war while at the same time tackling the country's 
more immediate development needs and challenges.
    As the new government is formed following the upcoming 
election, the United States will build strategically on the 
current strong relationship.
    We will identify opportunities to enhance transparency, 
strengthen checks and balances and support Liberians both 
inside and outside of government institutions.
    This includes our work with the nation's next generation of 
democratic leaders. If successful, this election will result in 
the country's first peaceful democratically elected transition 
of power in more than 70 years, marking a critical milestone in 
the country's progress toward a stable democracy.
    Recent USAID assessments indicate that citizens are excited 
about the election and remain actively engaged in the political 
process.
    While the campaign period had proceeded smoothly to date 
with political parties and candidates conducting themselves 
peacefully, the National Elections Commission is still fairly 
limited in its capacity.
    There may by logistical challenges exacerbated by the 
limited infrastructure across the country, especially given the 
timing of the elections during the rainy season.
    USAID continues to support elections preparations including 
support to address necessary preparation that is facing the 
National Elections Commission.
    This support has three core pillars. The first improves the 
performance, transparency, and accountability of the 
commission, which, in turn, builds public confidence in the 
elections.
    Second, we support citizen participation in electoral 
processes as voters, as activists, and as candidates, and 
third, we strengthen civil society and media monitoring of the 
electoral process.
    USAID has partnered with local media and civil society 
organizations including youth, women, and trade unions to 
educate first-time and hard-to-reach voters about the stakes in 
the 2017 elections, and encourage their peaceful participation.
    Also, we continue to build the communication capacity of 
the Elections Commission. This includes support for regular 
meetings between the commission and political parties to share 
information and to help resolve electoral issues before they 
escalate.
    USAID supported domestic and international observation 
missions, continued to provide reports on the pre-electoral 
process.
    The Sirleaf administration remains publicly committed to 
conducting a free, fair, and transparent election in October 
and to an orderly transition of power to the incoming 
administration. USAID remains committed to partnering with 
Liberia during that transition.
    I would be remiss if I did not acknowledge and thank you 
for the critical support provided by Congress through the 
United States emergency assistance to Liberia during and after 
the Ebola epidemic.
    With donor support, the government was able to control the 
epidemic, which many predicted would have been far worse. We 
must continue to invest in strengthening institutions to 
further improve public administration and communication 
functions at national and local levels and to enable citizens 
to hold their government accountable.
    This will enable the government to respond to potential 
future emergencies and ensure the cooperation of the public in 
adhering to public health guidance.
    In summary, we believe that the Government of Liberia can 
create conditions for a credible electoral process from the 
pre-election period through the transparent tabulation and 
announcement of results.
    USAID will continue to support these efforts. We will urge 
the newly-elected administration to consolidate democratic 
gains through effective and accountable governance that is 
responsive to the citizens and to adhere to the rule of law.
    This includes developing and utilizing systems that reduce 
opportunities for corruption and waste of limited public 
resources.
    Thank you, Mr. Chairman, Ranking Member Bass, and members 
of the subcommittee for the continued commitment you have shown 
to the Liberian people.
    I welcome any questions you might have.
    [The prepared statement of Ms. Anderson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Ms. Anderson, thank you very much for your 
testimony.
    Just a few opening questions. One, you talked about the 
reports on the free election progress. Are those reports 
encouraging? Are they showing a willingness, for example, of 
the various candidates?
    I know State has met with the Liberian candidates to adhere 
to the rule of law. If they don't like the outcome, will they 
adhere to the outcome, providing it was free, fair, and 
transparent?
    What have those reports suggested that we are on track for 
a good election or are there some warning signs?
    Mr. Yamamoto. We have reporting coming in from Ambassador 
Christine Elder and her team, who have been in close contact 
with the National Electoral Commission and also with President 
Johnson Sirleaf, who has a big stake in ensuring the next 
elections are free, fair, and transparent and accountable to 
the people.
    So far, everything looks on track. Obviously, from the 
Carter report, NDI report, and also our own reports there are 
challenges and problems ahead.
    But overall, it looks to be on target. We have over 20,000, 
of course, poll workers are being trained through USAID and 
IFES and, of course, we are looking carefully at all of the 
over 5,360 polling areas to make sure that they are 
appropriate.
    I think one of the big factors would be the rains--if it is 
raining, how people are going to get to the polling. That is 
going to be a challenge, given there are only 7 percent of 
paved roads in Liberia. But it is on target.
    Mr. Smith. Okay.
    Let me ask you, with the U.N. Mission to Liberia, which we 
all know has played an integral part in disarming the more than 
100,000 former combatants and has trained and professionalized 
Liberia's police force to ensure law and order and to advance 
women's participation in government and civil society, with 
UNMIL drawing down currently and on track to be entirely out 
next year, how prepared do you think the government will be. 
The bureaucracy and, of course, who heads the government will 
be extremely important to handle security on its own, 
especially since some of the candidates have poor records of 
human rights.
    We don't know who's going to win. We don't take sides. But 
there is a concern--I have it at least and I am sure others do 
as well--about some people who have had very poor records of 
human rights who could be head of state.
    Mr. Yamamoto. The program for UNMIL has been a success 
story and their extension past the election was really to 
ensure that there remains confidence in the process.
    The issue is that it has been on target to remove--they 
have a token force now and I think they have done their mission 
and it is really up to the Liberian security forces.
    In the last elections and currently, we assess that the 
defense force as well as the police still need training and 
guidance and mentoring. We will be on top of that with the 200 
troops and over 600 police.
    Our reports right now are that they are up to the target to 
meet the needs and, again, we will continue to be there. This 
remains a priority, even after UNMIL leaves.
    Mr. Smith. Let me just ask you briefly about the ability to 
register and vote. Are we convinced that the process is, again, 
transparent so that people who have signed up will find out 
when they show up at the polls there is their name, they can 
make their selection, and have confidence it will be counted 
correctly?
    Ms. Anderson. I think we can be relatively optimistic now. 
We have been through the voter registration period with our 
support.
    I think we have seen fairly good turnout on the voter 
registration with an emphasis on hard to reach voters, first 
time voters, and also on women voters.
    I can tell you that one of the kind of new technologies 
that we have supported is that Liberians can now use their cell 
phones, and many of them do have cell phones, and put in a 
message that includes their voter registration ID number and 
then get a message back that tells them where is the location 
for them to go and vote.
    Mr. Yamamoto. And just to add to that, it is, again, the 
appeal process and we have been working very closely with 
President Johnson Sirleaf on the judicial process and due 
process, and if there are any problems from--expressed by the 
candidates on one of the candidates, then that will be 
addressed quickly and efficiently and effectively, we hope, and 
we will be there by the NEC and of also the judicial process.
    Mr. Smith. And last question before going to Ms. Bass. 
Ebola and the work that was done--just nothing but kudos for 
the great work that you did, the administration did, the 
military deployment, all of it was just textbook on how to try 
to mitigate a crisis from killing even more people.
    We know Ebola is not gone. Are we convinced that we have 
early warning capabilities that, should it reemerge, that it 
could be quickly mitigated and hopefully eliminated?
    Ms. Anderson. First of all, thank you for the generous 
support and guidance on the Ebola response. There hasn't been a 
new case in Liberia in 1\1/2\ years and we certainly recognize 
that countries with weak health systems and with low confidence 
in the public--in their public health systems that was where we 
had the big problems.
    So this is no time for complacence. We have invested 
significant sources in the health systems and we are also 
building the citizens' confidence in their own services.
    So I think there have been several recent outbreaks; Lassa 
fever and cholera where we were quite worried about spread and 
the Liberian public health system has been able to detect them 
through their surveillance system and successfully manage to 
control them.
    So our efforts really are to help the public health system 
prevent, detect, and respond to disease and we will continue 
that.
    Mr. Yamamoto. Mr. Chairman, I can't overemphasize the great 
work that you have done and, of course, Congresswoman Bass, 
because you have really highlighted a lot of the issues and 
challenges and really brought forth the things that we really 
need to focus on and it has really brought the international 
community focused on this and also all our groups.
    And more important is the emphasis that you have all placed 
on institution-building, democratic values and really through 
this, strong institutions, we can guarantee and support 
anything that happens--pandemics or famines or other issues. 
And so thank you very much for your great work.
    Mr. Smith. Again, thank you, Mr. Ambassador and Ms. 
Anderson, for the great work you guys did. It is all about 
teamwork and I think this is one of those times where everyone 
came together and united to ensure that innocent people had not 
succumbed to that horrible and dreaded disease.
    Ms. Bass.
    Ms. Bass. Thank you, Mr. Chair.
    And, actually, since you were talking about infrastructure, 
one, it is very good to hear that there has not been any new 
cases of Ebola.
    When I was in Liberia in August of last year, they were 
concerned about relapse or it being transmitted after, you 
know, the fact. And so hearing that there haven't been any new 
cases is really good.
    Not quite on our topic, but since you were talking about 
infrastructure, I was just wondering what more you think needs 
to be done now post-Ebola in terms of the health 
infrastructure.
    Mr. Yamamoto. I defer to my colleague just on the basic 
programs that we are going to do on health. But I think overall 
it is simple things. The power generation, the MCC, and the 
$257 million in electrification.
    You know, when we were out there in Liberia when Charles 
Taylor was transitioning out, there was no electricity and we 
were just amazed and shocked that this could ever happen. And 
it has, and thanks to you, the MCC program, et cetera.
    The other issue, too, part of the MCC has been roads, 
really to bring the rural and the urban together but more 
important is to get access to those in rural areas, to bring 
them back for rapid treatment, et cetera.
    So those are things to bring the country together and I 
think those are the infrastructure. The others are economic 
development and raising capacity building, particularly in the 
health sector.
    I turn to my colleague on the other issue.
    Ms. Anderson. I agree that our emphasis has to be on 
building local capacity so that Liberians can define their own 
future and their own path forward.
    There is a lot more work to be done, obviously, in 
infrastructure and in the capacity and training of the 
individuals in the public health system, at the same time 
working to mitigate corruption and waste in governance and also 
building the capacity of Liberian institutions to hold their 
government accountable to the people.
    Ms. Bass. Thank you. Thank you very much.
    So I wanted to ask you now about U.S. Government assistance 
to Liberia, in particular in the area of good governance and 
democratization, and you could address that both from the USAID 
perspective and others.
    So wanting you to describe the continuity and change in 
U.S. policy toward Liberia between our two administrations and 
what is proposed in the budget around democracy and governance 
and where we are, and if that has impacted what we are doing in 
Liberia today.
    And I believe, Mr. Ambassador, you were mentioning poll 
workers that have been supported by our funding but I did not 
quite hear what you said in terms of the number.
    Mr. Yamamoto. Yes. So right now, over 20,000 poll workers 
are being trained. Obviously, one of the problems for the NEC 
is to get numbers and also the training.
    But I defer to USAID since it is coming from USAID and 
IFES.
    Ms. Bass. Okay.
    Ms. Anderson. We have a longstanding partnership with 
Liberia, and Liberia will continue to be a relative priority 
for us.
    Democracy rights and governance is an important element of 
our programming in Liberia and it has really been an area of 
emphasis, working on governance, public financial management, 
building the capacity of the judiciary, working especially on 
anti-corruption, supporting civil society and the media, and 
our aim really, as I said, is a government that is responsive 
and accountable to its citizens and we will continue this into 
the next administration in Liberia.
    Ms. Bass. So what concern that some of us have begun to 
have on the Hill is, one, there are the proposed cuts and, 
obviously, that is still working its way through the process, 
but whether or not in USAID you will be allowed to spend money 
that has already been allocated as opposed to slowing that 
process down because we have heard that in terms of the 
expenditures that are not being really implemented is one 
question. And I have a follow-up question to that.
    Ms. Anderson. Yes. I think we are still continuing to be 
responsible for delivering development results with the funding 
that has already been appropriated and, as we go forward, if 
the levels are reduced we will just have to make sure that we 
are increasingly using our money more efficiently and more 
effectively.
    Ms. Bass. And so you got what I was saying? I mean----
    Ms. Anderson. Yes, I did.
    Ms. Bass. Not the future. Money that is already there----
    Ms. Anderson. Yes.
    Ms. Bass [continuing]. And are you free to spend it? I 
don't know if you are involved at all with the famine effort. 
But we allocated close to $1 billion and we are hearing that 
that is being slow walked.
    It is an emergency, and so is it getting out of the door or 
is it being held back and will it be carried over into the next 
fiscal year? I am saying that in reference to famine but we 
have heard that about the democracy funding as well.
    Mr. Yamamoto. Can I have 1 more minute, Congresswoman?
    So we have dedicated about $2 billion since 2003 and if you 
look at the last 10 years it is about $1.5 billion. But 
overall, the aid assistance, even toward the end of the last 
administration, was going down.
    So the question comes in is, is for us we are looking at 
dwindling resources across the board but Liberia, for us, 
remains a priority country.
    We still have, as you know, three bilateral commissions 
and, of course, Liberia becomes a fourth and that is critical 
and that is because of the work President Johnson Sirleaf has 
done and then all the good results she has gone through and we 
want continue that.
    So long as we are here, we are going to continue to commit 
to that. I mean, just looking to--at our own assistance as far 
as assistance to the military training, to other areas, yes, it 
is probably going to take some cuts. But the issue is that the 
commitment is still there and it continues into the next 
physical year.
    I can't say what the amounts are going to be exactly. We 
will have to come back to you once those numbers are defined, 
but to assure you that for us, as long as we are here, that is 
a priority country.
    Ms. Bass. Okay. So I hear you say that the commitment is 
there and commitment without resources is a little shallow.
    But I also hear you saying that you are able to expend the 
money that is being allocated. Is the famine money spent?
    Ms. Anderson. Yeah. I will----
    Ms. Bass. I am sorry?
    Ms. Anderson [continuing]. Be happy to get back to you on 
that.
    Ms. Bass. Would you? I would appreciate that. I would 
appreciate that.
    And so then my final question is what are we prepared to do 
after the election? I mean, as I mentioned, I was in Kenya and 
thought everything went well. Kind of went awry after the fact.
    But it is one thing to get through the election. Then what 
are we prepared to do after the election?
    Mr. Yamamoto. So the election is an event and from there 
comes really the hard work to ensure that the democratic 
procedures and processes that President Johnson Sirleaf has 
really put in efforts to during her two terms that they will 
continue--that we won't see a backtrack.
    Then the other issue too is that we need to continue to 
strengthen the NEC, the legal process and procedures, because 
that is going to be very important to how we do the structures 
afterwards.
    And, again, we will be visiting Liberia constantly. Our 
Ambassadors will be committed. We are going to look at what we 
have to do--what areas do we need to emphasize and stress.
    We are going to be continuing on MCC, Power Africa, and 
also the girls' education and women's entrepreneur, which is 
their two most important and, really, changing of society as a 
societal program.
    And then we are going to look much more closely too at 
economic development to see how we can address the needs of the 
50 percent youth and high unemployment rates in Liberia.
    Mr. Donovan [presiding]. Thank you, Ms. Bass. Thank you, 
Mr. Ambassador. Thank you, Ms. Anderson.
    Mr. Ambassador, State Department has met with the 
candidates--the Liberian candidates that are running for 
election.
    How confident are you that this relationship between our 
two countries will continue in the next government, 
particularly when you look at some of the human rights concerns 
that many Liberians have about some of the candidates?
    Mr. Yamamoto. Like I said, in two ways. First are that the 
results of those elections are by the people of Liberia 
themselves and I don't think that the people of Liberia are 
ever going to go back to a regression of what it was prior to 
President Johnson Sirleaf.
    And the commitments and the developments that have been 
made--I think the people are committed to those trend lines.
    The second area, too, is that you have a large Liberian 
diaspora in the United States. I think they are very vocal. 
They will keep us on our toes if we are not focused on those 
issues, and my message to the--not only the diaspora--but the 
people of Liberia is that we are still committed to ensuring 
that the results after the elections will be as strong and as 
robust and continue because this remains a priority country.
    Mr. Donovan. Thank you.
    Jewel Taylor, who is the former wife of Charles Taylor, 
current senator and the Vice Presidential candidate, was 
reportedly in the United States this year advocating for the 
release of her husband, her ex--former husband from prison. Can 
you tell us what efforts are being made about Charles Taylor's 
imprisonment and her efforts to have him released?
    Mr. Yamamoto. You mean Charles Taylor, the----
    Mr. Donovan. Yes.
    Mr. Yamamoto. Okay. He is in jail for the long term. We 
have not made any efforts to seek any change or adjustment to 
the due process and what was adjudicated by the court systems.
    Mr. Donovan. Okay. Had his wife met with folks from the 
State, do you know, at all?
    Mr. Yamamoto. We don't normally comment on----
    Mr. Donovan. Okay.
    Mr. Yamamoto [continuing]. People, but let me just say yes, 
we did--we did meet with Jewel Howard Taylor and those 
conversations, I think, are between us.
    Mr. Donovan. We totally understand, Mr. Ambassador. Thank 
you.
    Mr. Yamamoto. But, believe me, messages were passed.
    Mr. Donovan. Great. Thank you.
    Ms. Anderson, USAID is working with the international 
organizations such as the U.N. and other partners to ensure 
that the election process in Liberia next month is smooth, 
credible, and peaceful.
    What more should the United States be doing, leveraging 
partnerships that we have with others to help ensure a 
successful outcome of the election?
    Ms. Anderson. I think that coordination right now is very 
important and we are putting a big effort on coordinating our 
efforts with others--other stakeholders in the process 
including other development partners, donors.
    We--up until now, we are cautiously optimistic. We are 
reading the reports that are coming in. I agree with Ambassador 
Yamamoto that we are concerned about the logistics and the 
relatively weak capacity of the Elections Commission.
    It is still a work in progress, especially in light of the 
infrastructure and the rainy season. So one of the things that 
we have been working on with the commission is communications 
because we have seen in other elections sometimes that is where 
things break down.
    If there is a problem, if there is a delay, people start to 
get nervous and if the commission is not talking about what's 
happening, even if it is a mistake or a problem, that 
communication is very important.
    So we have been working with them on that. At this point, I 
think maybe the only other thing I would mention would be there 
is a limited police presence outside of the capital, Monrovia, 
and we are keeping an eye on that.
    The Liberian Government was asking for additional funding 
to be able to deploy the police that they have been training so 
that they can actually go out to the polling station locations. 
The Japanese Government recently put in a $1.1 million 
contribution to that.
    Mr. Donovan. Thank you.
    My last question is, I know USAID is managing two different 
programs on elections in Liberia, extending to next year. But 
at some point, those programs are going to end.
    What is our confidence level that once those two programs' 
lifetime has expired the skills of the Liberian election 
officials to carry on all the work that you have done for all 
this length of time?
    Ms. Anderson. I think you will hear more about that in the 
next panel with probably more detail than I can give. But our 
emphasis has been on building local capacity because it is the 
Liberians' responsibility to run their elections, to monitor 
them, and to participate in those elections.
    So our emphasis has been on training and also anticipating 
problems to help the commission deal with issues before they 
escalate into big crises.
    We will have to see what the future brings in terms of 
future elections.
    Mr. Donovan. I thank you both, Mr. Ambassador and Ms. 
Anderson. I thank you for your testimony, your insight, and for 
your forthcoming answers to our questions.
    This panel is now adjourned. We will give a 1-minute break 
to allow the next panel to come up. Thank you very much to both 
of you.
    Ms. Anderson. Thank you.
    Mr. Donovan. I would like to take a moment now to thank 
Chairman Smith and Ranking Member Bass for holding this 
hearing.
    I would like to also welcome and thank all of our witnesses 
for being here today. I would especially like to welcome my 
constituent and good friend, Dr. Aurelia Curtis, along with her 
husband, Al, and her family.
    Thank you for making this trip all the way down. Now you 
know what I go through every week.
    I've known Dr. Curtis since my days of serving as chief of 
staff to then Staten Island Borough president, Guy Molinari, 
where she was then the principal of Curtis High School. That is 
how good we are in New York--we name our high schools after our 
principals.
    I asked Dr. Curtis to be a witness here today because of 
her unique perspective as someone who has been an integral part 
of the Liberian community in the United States.
    For those of you who may not know it, Staten Island is home 
to the largest concentration of Liberians outside of Western 
Africa.
    One of the many things that I have learned from Dr. Curtis 
and our local Liberian community is their dedication to 
highlighting the importance of freedom, liberty, and democracy, 
because they have seen first-hand the turbulence and chaos that 
arises when these principles are not upheld.
    In recent years, Liberia has made strides in advancing its 
democratic and development efforts while we must recognize the 
challenges that we face ahead.
    In less than a month, Liberia will hold elections that will 
test the nation's democratic strength and stability. This is an 
opportunity for the country to make history by allowing the 
Liberian people to experience their first post-war democratic 
transfer of power.
    Looking to the future, it is this subcommittee's intention 
to ensure that Liberia is able to further build a strong, 
peaceful, and democratic nation.
    We are fortunate to have a panel of experts including Dr. 
Curtis that will examine some of the issues I touched on as 
well as other important topics.
    I look forward to hearing their insights as well as having 
thoughtful discussions to help put into place policies that 
will ensure Liberia's future as a stable democracy and 
strengthen the United States-Liberian relationships.
    I now yield to the ranking member, Ms. Karen Bass.
    Ms. Bass. Mr. Chair, I will defer my comments until the 
panel has spoken.
    Mr. Donovan. Wonderful.
    I would like to introduce our panel. David Peterson is 
senior director of the National Endowment for Democracy. Since 
1988, he has been responsible for NED's program to identify and 
assist African NGOs.
    He was formally executive director of Project South Africa 
of the A. Philip Randolph Education Fund and a freelance 
journalist in Africa and Turkey.
    He has visited more than 40 African countries and is an 
expert in sub-Saharan Africa.
    Dr. Aurelia Curtis is the founder of the Weeks Educational 
and Social Advocacy Project, Incorporated. It is based in 
Staten Island, New York, and Liberia.
    As a key conduit between Liberia and the Liberian diaspora 
community in the United States, this agency's mission is to 
increase access to better education opportunities, expand 
social development, and improve health care for the community.
    Dr. Curtis, as I said, was also the principal of Curtis 
High School in Staten Island, which has the largest 
concentration of Liberians outside of Western Africa.
    Rushdi Nackerdien is the International Foundation Electoral 
Systems regional director for Africa. A founding member of what 
was the Electoral Leadership Institute, he was focused on 
electoral reform, capacity development, strategic planning, 
project and program evaluation, and expert advice in elections 
and development of e-learning materials with a special focus on 
Africa.
    Additionally, he has guided the African Union in revising 
their election observation approach and has worked in numerous 
African countries such as Senegal, Ghana, and the Democratic 
Republic of Congo.
    Dr. Chris Fomunyoh is the current senior associate and 
regional director of the Central and West Africa at the 
National Democratic Institute.
    He has organized and advised international election 
observation missions and designed and supervised country-
specific democratic support programs with civic organizations, 
political parties, and legislative bodies throughout Central 
and West Africa.
    He recently designed and helped launch the African 
Statesman Initiative, a program aimed at facilitating political 
transitions in Africa by encouraging former democratic heads of 
state.
    He is also an adjunct faculty--he is also an adjunct 
faculty member at the African Center for Strategic Studies and 
a former adjunct professor of African politics and government 
at Georgetown University.
    On behalf of this subcommittee, I welcome you all. And at 
this point I recognize Mr. Peterson for his opening statement.

    STATEMENT OF MR. DAVE PETERSON, SENIOR DIRECTOR, AFRICA 
          PROGRAMS?, NATIONAL ENDOWMENT FOR DEMOCRACY

    Mr. Peterson. Thank you, Chairman Donovan and Ranking 
Member Bass. It is really a pleasure and an honor to be able to 
testify this afternoon.
    Liberia has come a long way in the 30 years since the 
National Endowment for Democracy began working there in the 
waning years of the Samuel Doe regime, through the civil war, 
the interim government, the rule of Charles Taylor, and now two 
terms of Ellen Johnson Sirleaf, and the Ebola crisis.
    Liberia's October 10 election should be competitive, 
peaceful, and democratic. But Liberia's democracy should not be 
taken for granted.
    Having observed both the 1997 elections that brought Taylor 
to power as well as the 2005 elections that ushered in Ellen 
Johnson Sirleaf, I can testify to the determination Liberians 
have demonstrated for democracy at the ballot box.
    According to Afrobarometer, 83 percent of Liberians support 
democratic elections. That is a very high level 
internationally.
    The reports from our Liberian partners in the field 
describe lively candidate debates, successful voter 
registration efforts, massive civic education campaigns. They 
are mobilizing youth, women, traditional leaders, security 
forces, among others, to inform them about the process and the 
candidates and to participate responsibly.
    They are using social media, phone banks, community town 
halls, radio, and even old-fashioned town criers to spread the 
word.
    They are monitoring the process, providing criticism and 
recommendations, and some are working directly to support the 
electoral commission.
    According to one of our partners, campaigning has been 
peaceful and mature, even in the most troubled areas. As I say, 
candidates and their campaign managers have been keen on the 
issues and things they can do to improve livelihoods and 
environments of their people as opposed to indulging in ethnic 
politics.
    Though we all know that democracy is more than elections 
and the challenges of governance in the interim can be 
daunting, predicting the future is dangerous, especially when 
it comes to the volatile politics of West Africa.
    But Liberia could prove to be a reliable democratic partner 
of the United States. Its democratic institutions and popular 
commitment to democracy could grow stronger and its governance 
could improve.
    How can this happen? Liberia is not the only country in 
West Africa holding democratic elections. Ghana's elections 
last year were a model of efficiency and transparency as well 
as being peaceful and democratic.
    Gambia's elections last year were also competitive and 
produced a surprising transition. In the last few years, 
Senegal, Benin, Cote d'Ivoire, Burkina Faso, Mali, and, of 
course, Nigeria have held elections of varying quality but all 
essentially free and democratic.
    Sierra Leone and Guinea will hold elections next year, 
which are also anticipated to be democratic. Thus, in this 
regional context, Liberia is fortunate to be surrounded by 
democratic-minded neighbors who are more likely to support 
Liberia's democratic trajectory than to divert it.
    The kinds of cross-border attacks that used to occur back 
and forth between Guinea, Sierra Leone, and Cote d'Ivoire have 
ended.
    The steady withdrawal of U.N. and ECOWAS troops is not a 
sign of fatigue or diminished support but of confidence--that 
Liberia's own security institutions are strong enough to 
maintain order and protect the country.
    All of these governments are friendly to the United States 
and as their democratic systems consolidate and mature, the 
entire West Africa region should come to be regarded as an 
important economic and political partner of the United States.
    Liberia is special, as Congressman Smith has already noted. 
Although its population is only about 4.3 million, it is the 
only country in Africa that claims a special kinship to the 
United States--America's stepchild, as some Liberians put it.
    Its history is closely intertwined with ours from the 
founding of the American Colonization Society in 1822, 
independence in 1847, the long dominance of the America 
Liberian elite, its service as an American base in World War II 
and the Cold War, to place names such as Monrovia, the Liberian 
flag, the uniquely American-accented Liberian English.
    Liberians' political upheavals have brought waves of 
Liberian immigrants, as you've already noted, to the United 
States and, obviously, you are very familiar with their 
energetic lobbying for the issues that they are concerned 
about.
    Most Liberians have long aspired for their nation to have a 
special relationship with the United States. Liberia's economic 
resources and commercial potential are also not to be 
dismissed, including rubber and palm oil, iron, tourism, and 
shipping.
    I have run out of time. Whoever is elected President of 
Liberia will be keenly aware of these relationships and will 
likely want to strengthen them and take advantage of them. But 
the United States also stands to benefit from a strong, 
prosperous, and democratic Liberia.
    In contrast to its destabilizing role in the region just 20 
years ago, Liberia is now serving as a model for democratic 
transition, female leadership, and national reconciliation. In 
the struggle against extremists and criminal networks in West 
Africa, Liberia could prove particularly helpful.
    Liberia's democratic institutions are in place and 
functioning but they need shoring up. The legislature, for 
example, is improving its performance, according to one of our 
partners that has been monitoring it for many years.
    But it has not always shown the independence and integrity 
that Liberians expect. Only one-third of Liberian voters 
believe that members of their House of Representatives reflect 
their views, according to the Afrobarometer, and one of the 
popular issues in the campaign has been to cut legislators' 
rather generous salaries and benefits.
    The legislative budget is almost equivalent to that of the 
entire education system in the country. Likewise, Liberia's 
judiciary remains weak.
    The Supreme Court's recent rulings of the eligibility of 
certain candidates has stirred controversy and questions about 
its independence.
    Having seen the critical role that the court played in the 
Kenyan elections, Liberians are skeptical that their own court 
would be able to show the same integrity.
    Liberia's local justice structure suffers from a shortage 
of magistrates and lack of resources, police and prisons. Some 
Liberians have criticized the special court that tried Charles 
Taylor because their own justice system has received so little 
support.
    I will leave the discussion about the Electoral Commission 
to my colleagues. I think they are better placed to comment on 
that. But it is an important institution.
    I should just say that Liberia's press remains independent 
and lively despite resource problems. The anti-defamation cases 
have tapered off and a new freedom of information act has also 
been an important advance.
    Civil society is very vibrant and often critical. It played 
a leading role in fighting Ebola and will continue to act as a 
watchdog as well as a partner with government when possible.
    The labor movement and the business sector have been 
gaining strength and have been partners with our own Solidarity 
Center and Center for International Private Enterprise. These 
nongovernmental institutions are fundamental for the success of 
Liberian democracy.
    Corruption, obviously, remains the weak point in Liberia's 
democracy, as for many African democracies. Nepotism, ethnic 
favoritism, shady contracts, vote buying, land deals, other 
forms of both grand and petty corruption can only undermine 
popular support for democracy and must be opposed.
    Although the candidates in the election have expressed 
their readiness to fight corruption as has President Johnson 
Sirleaf herself, Liberians have seen very little progress.
    Liberia must overcome many other challenges to consolidate 
its nascent democracy. The struggling economy, massive 
unemployment, dependence on the informal sector, ethnic 
conflict, religious conflict, land conflict, women's rights, 
environmental destruction--it is quite an agenda.
    But I remain optimistic that with political will, popular 
commitment, and some modest assistance from international 
partners, Liberia can consolidate its democracy and steadily 
improve its governance.
    Thank you. I look forward to your questions.
    [The prepared statement of Mr. Peterson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Donovan. Thank you, Mr. Peterson.
    We are honored to be joined by Chairman Ed Royce, who is 
the chair of the Foreign Affairs Committee, which this 
subcommittee is part of.
    The Chair now recognizes Dr. Curtis for her opening 
statement.

    STATEMENT OF MS. AURELIA CURTIS, FOUNDER AND EXECUTIVE 
    DIRECTOR, WEEKS EDUCATIONAL AND SOCIAL ADVOCACY PROJECT

    Ms. Curtis. Presiding chair, my Congressman Donovan, 
Ranking Member Bass, and members of the subcommittee, I thank 
you for the opportunity to provide testimony today about the 
role of the diaspora and Liberia's ongoing struggle for 
democracy.
    The military coup in 1980, followed by the horrific civil 
war in 1989, which lasted almost 15 years, claimed hundreds of 
thousands of lives and significantly destroyed much of the 
infrastructure of Liberia.
    A notable consequence of the war with the mass exodus of 
Liberians seeking refuge wherever doors were open, the United 
States of America opened its doors and the borough of Staten 
Island in New York City became home to the largest 
concentration of Liberians outside of West Africa.
    The Staten Island diaspora remains the center of culture 
and connections for Liberians across the United States. 
Optimistic that we will be an integral part of the rebuilding 
of Liberia, ensuring that it is indeed a land of liberty. The 
past 12 years of peaceful governance is a foundation that all 
Liberians must build upon.
    My name is Dr. Aurelia NdeKontee Louise Weeks Curtis and I 
serve as the executive director of the Weeks Educational and 
Social Advocacy Project, WESAP. I thank you, Congressman 
Donovan, for the gracious introduction.
    I have worked for many nonprofit causes, but WESAP, with 
offices in the United States and Liberia, now claims most of my 
time and attention. WESAP has connected amputee children in 
Liberia with resources in the U.S., offering them prosthetic 
limbs.
    When the children return to Liberia, WESAP ensures that 
they're enrolled in school, providing all tuition, fees, books, 
and uniforms.
    A local social worker is a liaison between WESAP students 
and families, supporting youth development and other family 
needs.
    WESAP has launched a campaign to put water wells near 
schools in Liberia that have no fresh water supply and is in 
partnership with two U.S.-based nonprofits to establish an all-
girl boarding school in Liberia.
    With the support of the Staten Island community, we assist 
families, especially immigrants and refugees from population 
groups that are not commonly represented in our area.
    We provide multiethnic and culturally sensitive services 
that address their needs with respect and dignity. Recently, 
WESAP advocated for and assisted a family to return the mortal 
remains of their daughter to the United States for burial.
    Princess Yates, a U.S. citizen born to Liberian parents on 
Staten Island, went to Liberia on July 4th to celebrate her 
grandmother's 90th birthday.
    She was involved in a tragic automobile accident. According 
to published reports, the local hospital refused to give her 
needed medical assistance because money was not readily 
available to pay for treatment.
    Her mother cried. Princess sat in an abandoned wheelchair, 
begging for help, until she took her last breath.
    This incident highlights the critical need for timely 
access to good health care, especially in a country like 
Liberia with a high level of poverty whose infrastructure was 
decimated by the civil war.
    Following the forthcoming elections, all Liberians must 
play a role indispensable to ensuring geometric growth in 
access to health care and other urgent facets of sustainable 
development in Liberia.
    Dual citizenship--Liberians in the diaspora often wonder if 
they are in fact welcome to participate in the rebuilding of 
Liberia. Primary about stems from the lack of clarity regarding 
dual citizenship.
    The Supreme Court of Liberia recently heard a case brought 
by Alvin Jalloh, a United States citizen born in Liberia to 
Liberian parents, who fled Liberia as a direct result of the 
civil war.
    He emigrated to the United States and subsequently acquired 
U.S. citizenship in accordance with the naturalization laws of 
this country.
    Chapter 22 of the Alien National--Alien and Nationality Law 
of Liberia ``prohibits Liberian citizens from taking other 
nationalities or engaging in certain acts in foreign 
countries,'' including armed forces enlistments and 
participation in elections.
    Liberians in the diaspora are watching this case closely 
because the wrong decision will have dire implications for the 
talent pool that is ready to return and assist in nation 
building.
    A decision in this case has not been rendered. But wait. 
The Supreme Court may have already ruled in this matter when it 
failed to prevent several candidates in the forthcoming 
elections from contesting when evidence was presented to prove 
that said candidates had naturalized citizenship in other 
countries.
    I call on this committee to use its influence to assist the 
people that you represent, Liberians in the United States of 
America, to attain dual citizenship, an initial hurdle that can 
be an impediment to tapping into the valuable human resource 
pool that resides outside of Liberia, a country in great need.
    Liberians in the diaspora stand willing and ready to 
assist. But many are not prepared to abandon the country that 
gave them refuge in their time of need nor should they be 
forced to make such a decision.
    DACA and TPS--temporary protective status for Liberia, 
Guinea, and Sierra Leone was terminated effective May 21st, 
2017. Deferred action for childhood arrivals, DACA is being 
dismantled by the current administration.
    Many immigrants, Liberians included, are adversely affected 
by the decision to end legal status, especially children who 
have known no other home than the United States of America. You 
have heard the appeals and protests to reinstate TPS and DACA.
    I add my voice to the chorus of immigrants, highlighting 
the plight of thousands of law-abiding Liberians who have 
contributed to the economy of this country and call the U.S.A. 
home.
    Please find a path for legal residence that will keep 
families united and offer students the opportunity to continue 
their education in the schools in which they are currently 
enrolled.
    A house with two rooms--the final report of the Truth and 
Reconciliation Commission, TRC, of Liberia Diaspora Project 
documents the experience of human rights abuses and violations 
of international humanitarian law that force Liberians to leave 
the country.
    The Staten Island Liberian Community Association and Staten 
Island-based African Refuge supported the work of the advocates 
for human rights to document this dark time in Liberian 
history.
    Based on analyses of more than 1,600 statements, 
interviews, and witness testimonies, the TRC report tells the 
stories of trauma experienced by members of the diaspora during 
the flight through Liberia and across international borders and 
in resettlement in the United States and United Kingdom.
    My father was among those who walked for days, sometimes 
sleeping under open skies, to escape warring factions. His home 
was taken over by rebels.
    Even after he found his way out of Liberia and into the 
United States, he continued to suffer the recollection of 
atrocities. The awful ramifications of Alzheimer's disease did 
not curb his desire to return to his home that he was forced to 
leave by rebel combatants.
    While many in the diaspora will attribute the beginning of 
Liberia's civil crises to the 1979 riots, I believe that there 
were many telling signs before April 1979.
    Poverty, political dominance, corruption, tribalism, and 
low literacy were significant contributors. Those political 
landmines did not begin in 1979. The same themes were present 
in interviews, the witness testimonies from members of the 
diaspora.
    The themes persist today and reared their ugly heads when I 
spoke informally to members of the community as I prepared for 
this testimony.
    The civil war has left entrenched resentments and divisions 
along tribal and political lines--evidenced in the diaspora, 
ever present in current campaign rhetoric. There is no quick 
solution to problems resulting from more than 100 years of 
dysfunction in government and social practices.
    The TRC report was a necessary start. Ignoring the TRC 
report adds fuel to the fire and buffers the rhetoric of many 
who believe there is no room at the table for them. So for many 
it is time to turn the table upside down.
    We cannot and must not allow stagnation to steer us 
backwards. Liberians on Staten Island and across the diaspora 
recognize the need for reconciliation and healing the wounds of 
the Liberian nation.
    When President Johnson Sirleaf inaugurated the TRC she 
said, ``Our country cannot continue to evade justice and the 
protection of human rights throughout our land, especially the 
kind that restores our historical place among civilized 
nations. Our Government will ensure that those culpable of the 
commission of crimes against humanity will face up to the their 
crimes no matter when, where, or how.''
    The current government has not dealt decisively with the 
TRC report. So the next government elected in October or 
November 2017 must chart a transparent course of action.
    The TRC report will not fade away into oblivion. No one 
disputes the findings, even though two commissioners did not 
sign the report because of undocumented dissenting views. The 
Liberian Government must determine if it will implement all or 
some of the recommendations.
    A new commission must be inaugurated to provide a timetable 
for implementation. The new TRC must have the benefit of using 
the investigative body that prepared the report as a resource.
    The mandate to develop a plausible plan for dealing with 
the recommendation made almost 8 years ago must be front and 
center in the first 100 days of the next government. Rethinking 
governance with hearts in mind, Liberians in the diaspora agree 
that rebuilding the physical and human capital must be top 
priorities for the next government.
    The close links between infrastructure development, 
education, agriculture, and health care are indisputable. There 
is no substitute for establishing desired goals and planning 
for how one will achieve those goals.
    Simplistic as it may sound, planning works. We call on the 
next government to share the 1-year, 3-year, 5-year, and 10-
year plans for four key areas--infrastructure development, 
education, agriculture, and health care.
    Integrated in the plan must be measures on accountability 
and quality control. If it is not working, the government must 
be prepared to revise the plan to ensure that the established 
goals are achieved.
    The socioeconomic schisms in Liberia are more pronounced 
than they were 12 years ago. How do we know that? Follow the 
money. Money transfer companies are sending large sums of money 
from the diaspora to support families in Liberia. But transfers 
are also going in the other direction, from Liberia to banking 
institutions overseas.
    Please explain to me how it is possible for anyone employed 
by the world's third poorest nation to legally amass enough 
wealth to build homes locally, buy homes overseas, and still 
have change to spare.
    I call on this committee to ensure that pressure is brought 
to bear on the Government of Liberia to institute systems that 
prevent and prosecute corruption all levels.
    In my other life, I would tell exam proctors your job is to 
prevent cheating, not to catch cheaters. Similarly so, the 
Government of Liberia must make it difficult for corruption to 
persist, and when corruption is uncovered, effective 
prosecution must send a strong message that a government for, 
of, and by the people will not stand by idly while the people 
are disenfranchised.
    [The prepared statement of Ms. Curtis follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Donovan. Thank you, Dr. Curtis.
    We are going to enter the rest of your testimony into the 
official record and take up some of those issues during the 
question and answer period.
    Ms. Curtis. I apologize if I----
    Mr. Donovan. No, that is okay. You are very passionate 
about this. Thank you, Dr. Curtis.
    We are going to take a pause for a moment. Chairman Royce 
has another hearing that he has to attend so the Chair 
recognizes Chairman Royce.
    Chairman Royce. Well, thank you, Mr. Chairman, very much.
    We have got a very long history of ties to Liberia, going 
back to July 26th of 1847. We know it is July 26th because that 
is Greg Simpkins's birthday here and he's the staff director 
and he and I have worked on Liberian issues since the '90s.
    And so there have been some disappointments. We were trying 
to get information into Liberia so that in her first race, 
Ellen Johnson Sirleaf could compete with Charles Taylor in the 
election.
    But he controlled all of the media and as a consequence, of 
course, he won. We were very disappointed, as you can imagine, 
afterwards to see what happened in Liberia with the mutilations 
and the murder rate and everything that transpired not only 
there but in neighboring Sierra Leone.
    For a while, one of the young men who worked in my office 
was a survivor. He lost both of his parents. He was from Sierra 
Leone.
    But he lost both of his parents to an attack by the 
Revolutionary United Front, and that group, of course, had been 
supported again by Charles Taylor. So it was very bad time for 
West Africa.
    When I chaired the Africa Subcommittee, we worked very 
diligently across party lines to send a clear unified message 
and that Charles Taylor needed to be brought to the bar of 
justice, and against the odds, he was.
    We have a respite here and in the meantime, years later, we 
have seen some impressive growth in Liberia. I have been out to 
Liberia and seen a number of the steps that are being taken and 
I got to tell you, the U.S. has invested there to rebuild and 
support democratic institutions, and as a nation confronted 
with immense political and economic and, of course, security 
and development challenges, Liberia has persevered.
    And I would just take for a moment the time to say that, in 
my view, President Ellen Johnson Sirleaf has been leading these 
efforts and I commend her strong leadership through two terms.
    But she is stepping down from office, and I think this is 
admirable because she is setting an example for other African 
leaders now in terms of stepping down and giving an opportunity 
for the next person to run for President in an open election.
    I think those elections provide an opportunity to 
consolidate these democratic gains. It is a peaceful transfer 
of power. If done successfully, Liberia will be a model to 
fledgling democracies across Africa.
    And on that, I want to thank the members of this committee 
because I think the members here--your continued interest in 
this, your efforts to help this along--will have very, very 
consequential impacts.
    I see Al White's in the audience. He is the former chief 
investigator of the Sierra Leone special court.
    And again, for those of you who have kept this interest, 
you know, for a generation, it is important. A steady hand--a 
steady hand of assistance here is important.
    The fact that the Liberian diaspora community--the American 
Liberian community--is so involved is a huge asset to the 
people of Liberia.
    So as we look ahead to future engagement, we all recognize 
one thing and that is that deep reforms are needed to further 
address corruption.
    In Liberia, just like the rest of the world, this is 
something that has to be confronted and a more conducive 
environment for trade and for business investment is really 
needed.
    So we here in the United States have got to remain a 
willing partner to support this transition of power where the 
will of the people is respected and upheld and beyond so that 
our country, the ancestral home of many Americans, our country 
and Liberia, can together continue to push for this hopeful 
track.
    We have a special responsibility here as Americans, and for 
the Liberian-American community here, thank you again for your 
engagement. Let us try to be clear-eyed. Let us make certain 
that there is accountability.
    Let us make certain we are on the ground in order to check 
in terms of the elections. I am going to meet--I am meeting 
here momentarily with the head of IRI and DNI.
    We have got to make sure, you know, that all these steps 
are taken and that we want to continue to help with reforms and 
we insist on the inclusion of the Liberian American community.
    Thank you very much for the time here, Chairman.
    Mr. Donovan. Thank you, Mr. Chairman.
    We will resume with opening statements. The Chair now 
recognizes Mr. Nackerdien for his opening statement.

   STATEMENT OF MR. RUSHDI NACKERDIEN, REGIONAL DIRECTOR FOR 
     AFRICA, INTERNATIONAL FOUNDATION FOR ELECTORAL SYSTEMS

    Mr. Nackerdien. Thank you, Mr. Chairman.
    Mr. Chairman, Ranking Member Bass, and distinguished 
members of the subcommittee, on behalf of the International 
Foundation for Electoral Systems, I deeply appreciate this 
opportunity to discuss the evolution of Liberia's democracy.
    With generous backing from USAID and international 
partners, IFES supports credible electoral processes globally.
    In many parts of the world including Liberia, IFES works 
with its partners in the Consortium for Elections and Political 
Process. Strengthening the International Republican Institute 
and the National Democratic Institute.
    Mr. Chairman, credible elections strengthen peace and 
democracy. This is no truer than in Liberia.
    Twelve years ago with the 2005 elections, Liberia was 
emerging from a civil war, a war that left hundreds of 
thousands dead, disabled, or displaced, a war wracked with the 
use of child soldiers and an epidemic of violence against 
women.
    The 2005 election shattered a double glass ceiling, leading 
to the first elected female head of state in Africa and the 
first black woman head of state, Her Excellency, Ellen Johnson 
Sirleaf.
    On October 10th, 2017, Liberians will recommit to 
democracy, as Johnson Sirleaf is ineligible to run for a third 
term and should be congratulated for honouring her country's 
constitutional term limits.
    This election will mark the first democratic transfer of 
political power in Liberian history.
    IFES has implemented election programs in Liberia since 
2004. Over time, our work has become more focused and nuanced.
    In 2005, Liberia's National Election Commission, known as 
the NEC, relied heavily on the U.N. peacekeeping mission and 
IFES.
    In 2011, it began standing independently. In 2014, in the 
midst of the Ebola crisis, the NEC ably conducted special 
senatorial elections.
    This is progress and it relied on IFES support in several 
key areas such as voter registration, results management, 
campaign finance, and electoral dispute resolution.
    Mr. Chairman, our efforts are yielding results. A recent 
survey found that 91 percent of Liberians feel free to choose 
whom to vote for while 90 percent feel free to join any 
political organization.
    The NEC increased its voters register from 2014 to 2017 by 
15 percent to 2 million registered voters. With IFES support, 
the NEC registered 67 percent of young voters.
    A 2017 USAID-funded study found that the majority of 
Liberians interviewed trust the NEC as an impartial and 
transparent body.
    In sum, without U.S. support, the commission would be 
weaker, less prepared for the elections, less voters would be 
registered, and less would know about the process, and the 
October elections in Liberia would be more expensive.
    For instance, the Government of Liberia assessed the 
viability of biometric voter registration for the upcoming 
elections. IFES advised against its implementation prior to the 
coming elections, citing cost and logistical reasons.
    The government agreed with our assessment and did not 
attempt a premature or rushed implementation of new untested 
technology.
    This is a clear example of how mutual trust both over time 
and adherence to local context leads to cost effective and 
practical decisions that can stave off electoral mishaps.
    Despite this progress, the NEC faces several challenges. 
Liberia's road network, already unreliable, will lengthen the 
delivery and retrieval of electoral materials, especially 
during the height of rainy season.
    The core of election officials still depend on continued 
international support for both planning and implementation. A 
run-off election is a highly likely scenario.
    The NEC will have 2 weeks after the announcement of the 
first round results for administering a runoff. This will 
strain the systems. These challenges highlight the continued 
need for assistance, which brings me, Mr. Chairman, to my 
recommendations for the U.S. Congress.
    Firstly, I thank the U.S. Congress for its robust 
bipartisan funding of democracy assistance and also its 
continued support.
    Electoral assistance as evidenced in Liberia with Liberia's 
success should start early and continue through the post-
election period to allow for flexible and responsive 
programming.
    Multi-year multi-election programs are the most impactful. 
In Liberia, we recommend continued support to a possible 
constitutional referendum to the eventual introduction of 
biometric voter identification and registration and to the 
strengthening of judicial capacities.
    Mr. Chairman, thank you again for this opportunity to 
testify. The October 2017 elections will be landmark 
achievement for Liberians and we congratulate them in advance.
    I am happy to answer any questions you might have.
    [The prepared statement of Mr. Nackerdien follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Donovan. Thank you very much.
    The Chair now recognizes Dr. Fomunyoh.

STATEMENT OF CHRISTOPHER FOMUNYOH, PH.D., SENIOR ASSOCIATE AND 
    REGIONAL DIRECTOR FOR CENTRAL AND WEST AFRICA, NATIONAL 
                      DEMOCRATIC INSTITUTE

    Mr. Fomunyoh. Mr. Chairman, Ranking Member Bass, 
distinguished members of the subcommittee, on behalf of the 
National Democratic Institute, NDI, I appreciate the 
opportunity to discuss prospects for advancing democracy and 
good governance in Liberia following next month's elections.
    I focus on the elections because how they are conducted 
will have significant impact on the legitimacy of the ensuing 
government and legislature and the performance of governance 
institutions.
    On October 10th, Liberians will go to the polls to elect a 
President, Vice President, and 73 Members of the House of 
Representatives.
    There are 20 Presidential and Vice Presidential tickets and 
approximately 1,000 candidates for seats in the House of 
Representatives.
    Since 2003, NDI has, with funding from the U.S. Agency for 
International Development and the Swedish Government, worked to 
strengthen the development of democratic institutions and 
practices in Liberia.
    To support Liberian efforts to conduct credible polls in 
2017, NDI deployed two pre-election assessment missions to 
Monrovia in February and September, currently has long-term 
observers and analysts in country, and will deploy an 
international election observation mission for the October 
polls.
    The institute is also providing technical assistance to a 
coalition of civil society organizations, the elections 
coordinating committee. They have plans to deploy thousands of 
citizen observers to monitor the polls across all 15 counties 
of the country.
    Furthermore, NDI is training party poll watchers from all 
political parties on how to enhance transparency by monitoring 
all aspects of voting on behalf of their candidates and 
collecting evidence from polling stations to use in the 
electoral disputes resolution process should the outcome of the 
polls be contested.
    Liberia has enjoyed a continuous period of 14 years of 
peace since the end of armed conflict in 2003 and citizens 
aspire to building a resilient democracy that delivers for its 
people.
    The upcoming elections will mark an historic milestone for 
the country as they present an opportunity for the first 
peaceful transfer of power from one elected President to 
another since 1944.
    According to recent focus groups undertaken by NDI, 
Liberians are enthusiastic about the elections and have faith 
in their ability to determine the outcome.
    They home that candidates and political parties present 
policy proposals during the ongoing campaign so citizens can 
make informed choices.
    The recent focus group research also underscored the fact 
that Liberians embrace democracy not only as a means to end 
conflict but also as the governance model that fosters 
accountability so governing institutions can deliver on 
citizens' expectations.
    Should the elected leaders be unable to satisfy these 
expectations, citizens may lose faith in democracy and further 
disengage from the political process, hence reinforcing apathy 
and stalling the country's democratic progress.
    With the election campaign underway, Liberians repeatedly 
stated to NDI observers that they, and I quote, ``do not want 
their communities to revert to the armed conflicts of decades 
past.''
    The future of democracy in Liberia will hinge in the short 
term on the perceived success of failure of the October polls 
and in the long term on the ability of future leaders to 
consolidate the games that have been made in the last decade in 
improving governance and meeting citizens' demands.
    If voters have confidence that the electoral process is 
fair and credible and that their collective will is reflected 
in the outcome, that will go a long way in laying the 
foundation for greater stability, peace, and sustainable 
development.
    In my full written statement, I discuss in more detail the 
electoral process and future prospects in the post-election 
period with regards to specific entities and issues, notably, 
the executive and legislative branches of government, security 
sector performance, civil society, decentralization, and the 
rule of law.
    I would like to submit that full statement as well as the 
September 9th statement issued by NDI's pre-election assistant 
mission for the record.
    I thank you for your time and look forward to your 
questions.
    [The prepared statement of Mr. Fomunyoh follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Donovan. I thank you very much, all of you, for your 
opening statements. I will take a few moments to ask some 
questions and then Ranking Member Bass will ask her questions.
    Mr. Peterson, there is an international polling 
organization--it may have been Afrobarometer--that reported 
that Liberians have more faith in the National Election 
Commission and the selection than they have in the past.
    Is there anything to attribute that confidence in? Has 
anything changed that confidence in our own election process?
    Mr. Peterson. Well, I think the commission has had some 
time to improve its operations. IFES, of course, has been 
working very closely with them for some years now.
    The Afrobarometer poll, as you note, a couple years ago was 
finding that only about a third of Liberians had, you know, 
significant trust in the electoral commission.
    But from what our partners are telling us now, you know, 
people are pretty confident that the commission can do its job. 
But I think there has been a lot that has been invested in the 
commission. It has got, you know, decent independent leadership 
and that makes a big difference.
    Mr. Donovan. Thank you.
    Dr. Curtis, that beautiful young lady from Staten Island 
who went back home--back to Liberia, suffered from that great 
loss, the accident in which she was denied medical care, is 
that the norm really?
    Is that--is that what happens to people in Liberia who 
can't pay for medical care and is there anything that our 
country is doing about that?
    Ms. Curtis. I think there is a lot that United States of 
America is doing about it. Knights of America has been a good 
friend to Liberia.
    The development of Liberia over the last 12 years would not 
have been possible without the friendship and the support of 
the Knights of America, the government, the institutions here, 
the USAID.
    But we have a broken system. We have a broken health care 
system that requires quite a bit. We have a broken education 
system, and the--as I said in my statement, while the last 12 
years of governance have been a great foundation that we can 
build on, there is still much to be done.
    Infrastructure development, education, health care reform, 
and paying attention to agriculture, which is what most 
Liberians know how to do, are going to be key challenges for 
the next government.
    There is so much at stake in this next election, and as a 
Liberian in diaspora I am grateful that Liberia has the United 
States as a partner in this and as a guide to help with 
establishing accountability and--for in areas that we are not 
historically good at.
    Mr. Donovan. Your advocacy for dual citizenship--do the 
Liberians back in Liberia, would they welcome American 
Liberians going there and participating in the election process 
or would they feel that there is an interference from outside 
sources if we--if more and more people were involved with dual 
citizenship?
    Ms. Curtis. I have heard arguments on both sides. But I 
tell you, Congressman, that in this election there is evidence 
that there are at least two candidates that have said they have 
citizenship in other countries.
    So will Liberians welcome them? We will see how the--how 
the votes are cast. Neither of the--actually, one of them is a 
leading candidate.
    So will Liberians welcome them? Let us see how the votes 
are cast. But I think it is a well-known fact in Liberia that 
several members of the Liberian Government and at least two 
candidates in the current elections have citizenship in other 
countries.
    But the Alien Law, Chapter 22, says that doesn't exist and 
it is illegal.
    Mr. Donovan. Mr. Nackerdien, was just wondering if you 
could tell us about how--again, talking about confidence, I 
think in your testimony it is about 54 percent of Liberian 
voters believe that the national elections back in 2011 were 
free and complete and fair, and I think in 2014, 3 years later, 
that was up to 78 percent.
    What inspires this confidence? Mr. Peterson was telling me 
about the commission. What inspires this confidence that the 
Liberians have in the election process in such a short period 
of time that increased so dramatically?
    Mr. Nackerdien. Thank you, Mr. Chairman.
    I think the one thing that one could very specifically 
point to is running an election during a crisis. The 2014 
elections happened during the Ebola crisis and the commission 
managed to very ably navigate a very complex time to manage 
that election and that is a direct testimony to how ordinary 
citizens respond to credible elections.
    A process happening in the crisis I believe maneuvered--I 
think that could most clearly demonstrate where that change has 
come from.
    Mr. Donovan. And my last question before I turn it over to 
the ranking member, Mr. Fomunyoh, there are many concerns about 
voter registration, timeliness.
    We heard in the first panel about the rainy season now and 
the timeliness of the elections, and Dr. Curtis had noted that 
perhaps even the qualification of some of the candidates who 
hold American citizenship or citizenship from other countries 
may be a factor in when people are voting.
    Do you anticipate that some of these issues are going to 
have a serious impact on the elections next month and what is 
your opinion on that?
    Mr. Fomunyoh. Having--Mr. Chairman, having just returned 
from Liberia as part of the pre-election assessment mission, 
the NDI delegation raised these issues with the Election 
Commission, with the political leaders as well as with 
representatives of Liberia and civil society organizations.
    There was a sense that the registration period did allow 
for Liberians of voting age--eligible voters to register. There 
was a voter verification period during which the initial 
registry was made available so that citizens could verify that 
their names were properly recorded on the voter rolls and now 
the Election Commission is in the process of finalizing the 
voter registry.
    The commission has promised to make that final voter 
registry available to political parties so that they will be 
able to verify in time.
    I think we were told by September 15 that that final list 
will be available to political parties so they can begin the 
process of verifying to make sure that all of their supporters 
that are of voting age and that did participate in the voter 
registration process will be on the voter rolls.
    Of course, with every election you cannot anticipate in 
advance the issues that will come up. But we will be looking 
very keenly to see if any Liberians that were of voting age and 
that were properly registered didn't find their names on the 
voter rolls or were disenfranchised because of any shortcomings 
on the part of the Election Commission or on the part of the 
poll workers.
    Mr. Donovan. Thank you very much.
    I yield to the ranking member, Ms. Bass.
    Ms. Bass. Thank you very much, Mr. Chair.
    I wanted to say a few things before asking questions and I 
wanted to begin with Mr. Peterson.
    You cited in your comments--you ran through a number of 
countries that have had peaceful transfers of power, and I 
think it is important to note that because we often focus on 
those countries that don't have a peaceful transition.
    And I think after the next year when all is said and done 
over all of the elections that have taken place over the 
continent, the vast majority are going to be a peaceful 
transfer of power and I think we need to keep that in mind.
    I always think it is important in the United States that we 
begin to look at the continent of Africa differently and as 
opposed to a land of problems but a land of opportunities.
    And I also want to mention in terms of Liberia because we 
keep making references to the connections between the United 
States and Liberia and I, first of all, feel that connection 
personally, considering that when the country of Liberia was 
established it was in conjunction with African American--
enslaved African Americans and for all I know, some of my 
ancestors could have been on those boats going back to Liberia.
    But since the average African American has no idea where 
their families come from or what happened to their families, to 
me there is a personal connection.
    And I think as our country begins to reconcile with our 
history, we need to acknowledge that the Americans that went 
over to Liberia were enslaved African Americans.
    So I wanted to first ask Dr. Curtis, because you mentioned 
DACA and you mentioned TPS, and I was wondering what is 
happening with the diaspora.
    I do have to extend to you as well as to our presiding 
chairperson the opportunity to come next Friday to the 
Congressional Black Caucus Foundation African Brain Trust where 
Johnson Sirleaf will be there.
    And we will make sure that you have that information 
because perhaps folks from Staten Island--it is not that far--
might want to come and attend the event and see their President 
make some comments for the last time in the United States 
before she leaves office, or one of the last times anyway. I am 
sure she will be attending other events and I know there is one 
that takes place a few days later.
    But I wanted to know if you could talk about what is going 
on amongst the diaspora community regarding DACA as well as 
TPS, which did expire. So what does that mean? Microphone.
    Ms. Curtis. I am sorry. I will address DACA first. The 
dismantling of that protection for children is unfortunate, and 
as an educator who serviced a large immigrant community on 
Staten Island, I understand the fear that now exists with 
families because it took some convincing for us in the Liberian 
community and the education community to convince families that 
it is okay--you should go ahead----
    Ms. Bass. Right.
    Ms. Curtis [continuing]. And apply for DACA.
    Ms. Bass. Right.
    Ms. Curtis. Now, these families have outed themselves----
    Ms. Bass. Right.
    Ms. Curtis [continuing]. And put themselves at extreme risk 
at a time when that protection has been snatched away.
    In the case of TPS, the United States of America has opened 
its doors, as I said, to Liberians in a time of great need. And 
even as Liberia has made great strides in reestablishing a 
democracy, there are many reasons why families need to continue 
to live here in the United States and TPS offered them that 
legal status. Having it terminated on May 21st again put many 
families into hiding again.
    Ms. Bass. Okay. What does that mean? Because since it 
expired, are they subject to deportation? Can ICE pass by, 
since they are also outed as well?
    I mean, is there a list that ICE could essentially go pick 
everybody up whose TPS has expired?
    Ms. Curtis. I believe ICE has access to all of the 
information for people who file for TPS, and if they decided 
that they wanted to do a roundup that they could. I hope they 
don't.
    But people who applied for TPS believed in a system that 
was providing them legal status and that system now has 
terminated that legal status. And so all of their--and these 
were all law-abiding citizens.
    Criminals don't go and register with the government. These 
were all--unless they are forced to--but these were all law-
abiding citizens who were working in this country and now don't 
have that.
    And I am not sure that the--that the systems in Liberia are 
prepared to absorb any mass migration back to Liberia.
    Ms. Bass. Do you know what the numbers are?
    Ms. Curtis. I don't have the numbers off the top of my 
head. But I will--I will research them and let Congress----
    Ms. Bass. Between DACA and TPS I think it would be 
important to know what the numbers are.
    Ms. Curtis. DACA, yes Congressman Donovan's office.
    Ms. Bass. Thank you, and you should know that we are 
working on it. So I am hopeful that we will come to a 
resolution around DACA and I am hopeful that we will come to a 
resolution around TPS.
    My fear, though, is that how long that is going to take us. 
Sometimes it takes us a long time to act. But we can act 
quickly. We can, and I am hopeful that we will.
    Let me--I am sorry?
    Ms. Curtis. I will be reporting for you in that regard.
    Ms. Bass. Yes. Absolutely.
    But I wanted to talk now about or ask some questions of our 
final--our next two panellists about the election and just a 
couple of points.
    One, I wanted to know, is the election just 1 day? As I 
mentioned, I participated as an observer in the election in 
Kenya, and it was 1 day but it was a national holiday so 
everybody had the day off and the polls were open from 6:00 to 
5:00 in the evening. And then in Kenya there was the full 
observer--observation mission.
    So, you know, there was NDI. There was the AU, the EU, the 
Carter Center, ECOWAS, and I am wondering if it will be a full-
blown observation mission as it was in Kenya. For either of 
you.
    Mr. Nackerdien. Thank you, ma'am.
    Yes, elections will be 1 day. Polls will be open on the 
10th of October and I think people will be very interested to 
see how quickly the election result actually comes back.
    As far as we understand, and my colleague from NDI will 
talk more about that, there are full-blown delegations from all 
the major observer missions.
    This is the--one of the top five elections that will be 
watched on the African continent--following Kenya, Rwanda, and 
there are already groups from the Carter Center--long-term 
observer groups.
    NDI has been there and the European Union has also been on 
the ground working with domestic observer groups as well.
    Ms. Bass. You know, and perhaps before you answer, you 
know, Dr. Curtis raised the issue that one of the leading 
candidates--his citizenship is questionable.
    And I just wonder, especially given what happened in Kenya, 
which was shocking to me, you know, with the Supreme Court, and 
I am just wondering if this issue is a part of the campaign--
when you were there.
    Mr. Fomunyoh. When I was there, we--our delegation met with 
all of the top candidates and the issue was not raised directly 
with our delegation.
    But we also were informed that in recent months the 
Election Commission as well as the Supreme Court has made some 
rulings that have been diversely interpreted by different 
segments of the Liberian population and we make reference to 
that issue in the delegation statement.
    If I could also answer on the delegations, that NDI will be 
fielding a full-blown delegation. We regret very much that you 
will not be able to----
    Ms. Bass. So do I.
    Mr. Fomunyoh [continuing]. Provide the leadership that you 
provided on the Kenya delegation.
    Ms. Bass. Thank you.
    Mr. Fomunyoh. But we are going to take a second chance with 
your schedule for November because----
    Ms. Bass. Oh.
    Mr. Fomunyoh [continuing]. Of the very strong likelihood 
that there will a run-off election, given that there are 20 
Presidential candidates and there is an estimation that none of 
the candidates would be able to obtain 50 percent plus one vote 
in the--in the first round.
    Ms. Bass. Do they have the dates of the final or----
    Mr. Fomunyoh. They don't have the date yet but it is likely 
going to be at some point early November.
    Ms. Bass. Okay.
    Mr. Fomunyoh. We will check with your staff, certainly.
    Ms. Bass. Please.
    Mr. Fomunyoh. But we know that the Carter Center is going 
to field an international delegation. The European Union will 
send an international delegation as well as the African Union 
and the ECOWAS, which is the subregional entity for West 
African states.
    Could I just add one last comment----
    Ms. Bass. Sure.
    Mr. Fomunyoh [continuing]. With regards to your 
observation, Congresswoman Bass, on what has happened with 
political leadership in Africa in the past few years and to 
underscore the fact that when you look at West Africa, which is 
ECOWAS, that of the 15 countries that currently make up West 
Africa, 14 of them have had a renewal of political leadership 
through the ballot box in elections that have been accepted by 
the citizens of those countries as well as the international 
community as credible and free and fair.
    And in those 14 countries, 14 of the 15 heads of states are 
serving their second term at the highest and none of them has 
exceeded the constitutional mandate that is required in most of 
those countries.
    So when you look at the continent, West Africa has really 
made tremendous progress with regards to the ability of renewed 
political leadership through meaningful and credible elections.
    Ms. Bass. Wonderful. Thank you very much.
    And I don't know, Mr. Peterson, if you would like to have 
any concluding comments.
    Mr. Peterson. Well, I will just echo Chris' comments about 
West Africa. I think it really has become a bastion of 
democracy. That is not to underestimate the serious problems 
that they have--you know, corruption, the insecurity.
    But I think that we in the United States would do well to 
pay a lot more attention to it. Democracy in many other parts 
of the world is under a lot of pressure. But I think we can be 
inspired by what is going on in West Africa.
    Ms. Bass. But we need to pay attention to it, huh? Is that 
what you just said?
    Thank you.
    Mr. Donovan. Well, I thank all of the panellists for their 
insight, their experience, and sharing their thoughts with us 
and I thank my friend from California, Ms. Bass, for her 
participation, and Chairman Royce and Chairman Smith.
    Without objection, all witnesses' full statements will be 
entered into the record of this hearing, and this hearing is 
now adjourned.
    [Whereupon, at 4:01 p.m., the committee was adjourned.]

  
                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
